                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A02050030
                                                                                        I            Page 1 of 1



      ~ o m ~ l a i n a nalleges
                          tl     intellectual theft committed by the subject2 in documents submitted by the subject to
      the National Science Foundation to support a change-in-scope for an ongoing NSF project.3 The change in
      scope for the subject's project was approved, and occurred in conjunction with the subject's move to another
      institution, resulting in the issuance of a new NSF grant number.4 Complainant and subject were prior
      research collaborators funded under an umbrella NIH grant at the complainant's institution.5 Complainant
      states that text and data from the NIH project were provided to the subject for the NSF change-of-scope
      document with the understanding that collaborative work would continue, and that the complainant would be
      listed as a cop1 on the NSF grant.

      The proposal jacket shows that the complainant does not appear as a cop1 on the new NSF grant, nor is the
      work proposed by the subject a collaboration between complainant and subject. Approximately 35% of the
      subject's NSF change-of-scope document is duplicated from the NIH proposal text for the joint work of the
      complainant and the subject, on which both the complainant and the subject are listed as PIS for that
      particular section. The published collaborative work of the complainant and the subject is referenced in the
      NSF change-of-scope document. Proposed experiments and investigations not found in the NIH proposal
      are evident in the subject's NSF change-of-scope document.

      Since both the complainant and the subject are listed on the NIH grant, each has rights to reuse the proposal
      text, and rights for use of results that were generated in that NIH project. Subject used the results of the NIH
      work in the NSF change-of-scope document with proper attribution and acknowledgment of previous
      collaborative work between the subject and the complainant. Further and distinct work described in the NSF
      change-of-scope document does not overlap with the work supported by NIH. Agreements between the
      complainant and the subject on terms or areas of future collaboration are hot subject to NSF evaluation.

      There is no basis for further inquiry, investigation, or action. Accordingly, the case is closed.




      ' Redacted
       Redacted
      ' Redacted
       Redacted.
       Redacted


                           Agent                      Attorney                  Supervisor                    AIGI

  Sign 1 date

                                                                                                              OIG-02-2
